     OFFICE OF 

INSPECTOR GENERAL 





HOSPITAL CLOSURE: 1989
          .




         Richard P. Kusserow
         INSPECTORGENERAL
            OEI-04-90-02440
                   EXECUTIVE                         SUMMARY

PURPOSE

This report describes the phenomenon of hospital closure in the United States. It examines the
characteristics of, reasons for, and impact of closures in 1989.


BACKGROUND

The closure of hospitals in recent years has generated increasing public and congressional
concern. According to a number of recent studies, more hospitals are expected to close their
doors in coming years. Numerous questions have been raised about the reasons for and the
impact of hospital closure, as well as the implications for public policy.

At the request of the Secretary of the Department of Health and Human Services, the Office of
Inspector General (OIG) prepared a report in May 1989 describing the nationwide phenomenon
of hospital closure in 1987. The Secretary then asked the Inspector General to continue analysis
of hospital closure to determine trends and effects of the phenomenon. A report on 1988 hospital
closures was issued in April 1990.

The findings from both the 1987 and 1988 studies were similar. The hospitals that closed were
small and had low occupancy rates. When the hospitals closed, few patients were affected.
Most could get medical care nearby.


FINDINGS

This inspection found that in 1989:

     l	    Seventy-six general, acute care hospitals closed - 12 fewer than in 1988. They were
           located in 29 States. Eleven new hospitals opened in 1989, and 3 of the 76 hospitals
           which closed in 1989 have reopened in 1990.

     l	    Forty-three of the closed hospitals were rural; 33 were urban. In relation to their
           numbers nationwide, a higher percentage of rural hospitals (1.6%) closed in 1989
           than urban hospitals (1.2%).

     l	    The closed hospitals in both rural and urban areas are significantly smaller than the
           national averages. Rural hospitals that closed were about half the size of the average
           rural hospital nationwide. Urban hospitals that closed were less than half the size of
           the average urban hospital nationwide.




                                                 i
l	   No significant difference exists in the average Medicare and Medicaid utilization
     among rural hospitals that closed and all rural hospitals nationwide. In urban areas,
     the average Medicaid utilization among hospitals that closed is higher than the
     nationwide average (13.5% vs. lo%), and the average Medicare utilization among
     hospitals that closed is slightly higher than the nationwide average (47.2% vs. 44.4%).

l	   The reasons for hospitals closing in 1989 are similar to those reported for hospitals
     closing in 1987 and 1988. Hospitals closed because of the interrelated factors of
     declining occupancy, lagging revenues and rising costs. Hospital viability was said to
     depend on the stability of all three factors. The weakening of one may begin a chain
     reaction eventually leading to hospital closure.

l	   Emergency and inpatient medical care is available within 20 miles for most
     communities where hospitals closed.

l	   Forty-four (58%) of the closed hospital facilities are currently being used; plans are
     being made for 12 of the currently vacant hospitals to be used for other types of
     health care services.




                                           ii
                       TABLE                       OF CONTENTS

EXECUTIVE             SUMMARY 


INTRODUCTION.. ....................................................................................................1 


FINDINGS ..................................................................................................................3 


       EXTENT AND NATURE OF HOSPITAL CLOSURE ..................................3 


              How Many Closed?. ....................................................................................       .3 


              Where Were They?. .....................................................................................      .3 


              How Many Opened? ....................................................................................        .


              What Were the Closed Hospitals Like?. ...................................................... .4 


              Why Did They Close?. .................................................................................       .


       IMPACT OF HOSPITAL CLOSURE.. ............................................................8 


              How Many Patients Were Affected? ...........................................................                 .9 


              Are Inpatient Care and Emergency Services Available?. ........................... .9 


              What Is the Building Used For Now?. .......................................................                 11 


       SUMMARY ......................................................................................................12 


ENDNOTES.. ............................................................................................................13 


APPENDICES 


       APPENDIX A: Methodology ......................................................................                   A - 1


      APPENDIX B: 1989 Hospital Closure Tables ............................................. B-l 

                             INTRODUCTION

PURPOSE

This report describes the phenomenon of hospital closure in the United States. It examines the
characteristics of, reasons for, and impact of closures in 1989.

This report is a follow-up to the recent Office of Inspector General (OIG) studies entitled
“Hospital Closure: 1987” (OAI-04-89-00740), issued in May 1989, and “Hospital Closure:
1988” (OEI-04-89-01810), issued in April 1990.

This study has been requested by the Secretary of the Department of Health and Human Services.


BACKGROUND

In the past several years, the closure of general acute care hospitals has generated increasing
public and congressional concern. According to a number of recent studies, more hospitals are
expected to close their doors in coming years. Numerous questions have been raised about the
reasons for and the impact of hospital closure, as well as the implications for public policy.

The OIG released an inspection in May 1989 describing the phenomenon of 1987 hospital
closure in the United States. That study found that 69 hospitals closed in 1987. That study was
presented to the Secretary of the Department of Health and Human Services (HHS), the Assistant
Secretaries of HHS, and staff of the Health Care Financing Administration (HCFA) and the
Public Health Service (PHS). The Inspector General testified before the U.S. House Ways and
Means Subcommittee on Health regarding the study findings. Many of those informed of the
study of 1987 hospital closures encouraged the Inspector General to continue analysis of the
phenomenon to detect differences in the rate of hospital closure and in the characteristics and
circumstances of hospitals closing their doors.

A similar inspection of 1988 hospital closures issued in April 1990 found that 88 hospitals
closed. That study also was presented to the Secretary, the Assistant Secretaries, and staff of
HCFA and PHS.

The findings from both the 1987 and 1988 studies were similar. The hospitals that closed were
small and had low occupancy rates. When the hospitals closed, few patients were affected.
Most could get medical care nearby.




                                               page1
SCOPE

This study examined hospitals that closed in calendar year 1989.

For purposes of this study, the following definitions were used:

      Hospital:   A facility that provides general, short-term, acute medical and surgical inpatient
      services.

      CZosed Hospital: One that stopped providing general, short-term, acute inpatient services
      in 1989. If a hospital merged with or was sold to another hospital and the physical plant
      closed for inpatient acute care, it was considered a closure. If a hospital both closed and
      reopened in 1989, it was not considered a closure. If a hospital closed in 1988, reopened
      in 1989, and closed again in 1989, it was counted as a closure for 1988 but not again in
      1989.


METHODS

Information for this study was obtained from contacts with State hospital associations, State
licensing and certification agencies, State health planning agencies, officials associated with
closed hospitals and hospitals nearby, and local public officials. Information which describes the
characteristics of the hospitals was obtained from HCFA data bases.

Appendix A describes information collection methods in further detail.




                                                pai9 2
                                     FINDINGS 

The Inspector General’s study of hospitals closed in 1989 found that:

     l	    Seventy-six general, acute care hospitals closed in 1989. Twelve fewer hospitals
           closed in 1989 than in the previous year.

     l     Size and occupancy levels appear to be the major factors in hospital viability.

     l	    Because of the small size and low occupancy of hospitals that closed, few patients
           were affected.

     l	    Emergency and inpatient medical care is available within 20 miles for most
           communities where hospitals closed.

EXTENT AND NATURE OF HOSPITAL CLOSURES

How many closed?

In 1989, there were more than 6,800 hospitals in the United States. Of those, 5,396 were
general, short-term, acute care hospitals entered on HCFA’s data base as participating in the
Medicare program. Seventy-six (76) hospitals closed in 1989 - 1.4 percent of all hospitals
nationally. Twelve fewer hospitals closed in 1989 than in the previous year.

                         Hospitals in U.S.:                  5,396 

                         Closed in 1989:                        76 (1.4%)             I


When they closed, the general, acute care inpatient bed supply was reduced by 5,272 beds, or 0.6
percent.

Where were they?

The closed hospitals were located in 29 States. The greatest number of closures was in Texas
(13), followed by Illinois (7), Mississippi (6), and Colorado (5). These four States represented
41 percent of the closures. Eleven States had just one closure each. Appendix B lists the 1989
closures by State.

In relation to their numbers nationwide, a higher percentage of rural hospitals closed than urban
hospitals.




                                               page
                                                  3
How many opened?

While 76 hospitals closed in 1989, 11 new general, acute care hospitals opened, adding 744 beds
to the national supply of beds.

In addition to the new openings during 1989, two hospitals that closed prior to 1989 reopened in
1989, adding another 50 beds.

Three of the 76 hospitals which closed in 1989 reopened in 1990, adding 92 beds.

What Were the Closed Hospitals Like?

      Size: Hospitals that closed in 1989 were small. More than three-quarters had
      fewer than 100 beds.

                               SIZE OF CLOSED HOSPITALS

        Number of Beds                                        Hospitals
                                      Rural           Urban               Total        Percent




Closed hospitals in both rural and urban areas are significantly smaller than the national
averages. Rural hospitals that closed were about half the size of the average rural hospital
nationwide. Urban hospitals that closed were less than half the size of the average urban hospital
nationwide.




                                              page
                                                 4
                      HOSPITALS      THAT CLOSED       WERE SMALL
          # of beds

300
                                                         241.5
250

200

 150
                                                                         102.8

100

  50

      0
             RURAL HOSPITALS                       URBAN HOSPITALS


                        Nattonal   Avg.   m   Closed    Hospital   Avg


 Occupancy:    Occupancy rates for closed rural and urban hospitals were significantly
 lower than the national averages.’


                          OCCUPANCY       RATES WERE LOW

80%
                                                          69%
70%

60%

50%

40%


30%

20%

10%

 0%
             RURAL 	 HOSPITALS                     URBAN HOSPITALS


                        National   Avg.   m   Closed   Hospital    Avg
Medicare and Medicaid Utilization: No significant difference exists in the average Medi­
care and Medicaid utilization among rural hospitals that closed and all rural hospitals na­
tionwide. In urban areas, the average Medicaid utilization among hospitals that closed is
higher than the nationwide average (13.5% vs. lo%), and the average Medicare utilization
among hospitals that closed is slightly higher than the nationwide average (47.2% vs.


                              MEDICARE           UTILIZATION



                      50.2%          50.3%
                  ,           /                                         47.2%
                                                            44 4%
                                                        /                       /




         O%JL(    RURAL   HOSPITALS                    URBAN     HOSPITALS


                          National     Avg   m     Closed   Hospital   Avg




                              MEDICAID           UTILIZATION


      60%




        “N

                  RURAL   HOSPITALS                    URBAN     HOSPITALS


                          NatIonal     Avg   m     Closed Hospital     AW




                                             page
                                                6
Why Did They Close?

As in the previous 1987 and 1988 hospital closure studies, the many health care professionals
interviewed for 1989 closures reported no single reason for hospital closure. Hospitals closed in
1987 and 1988 because of the interrelated factors of declining occupancy, lagging revenues and
rising costs. Hospital viability was said to depend on the stability of all three factors. The
weakening of one may begin a chain reaction eventually leading to hospital closure.

Although the sequence and combination of these factors were not always the same, generally the
scenario was as follows:

The hospital’s OCCUPANCY begins to slide because a doctor leaves town or retires, or begins to
admit patients to a more modern hospital not far away. Also, the Peer Review Organization
(PRO) is said to be scrutinizing admissions more closely, and local physicians are cautious about
admitting patients whose claims may be disallowed later by the PRO. Lengths of stay are down
because of prospective payment pressures and more effective treatment methods. A new
ambulatory surgical center has opened and is also drawing away some of the hospital’s surgical
cases.

While occupancy is declining, the hospital’s COSTS continue to rise. Competition with other
hospitals means that new, high technology equipment is needed. Nurses and technicians are
demanding higher salaries - and they’re getting them from other hospitals nearby. The building
may be deteriorating but the hospital hasn’t been able to fully fund its capital reserves for several
years.

On the other hand, patient care REVENUE is down because of lower occupancy and more
uninsured or inadequately insured patients. For those who do have coverage, either public or
private, insurers are holding down their costs and squeezing the hospital’s bottom line.

Soon the hospital administrator is unable to manage the situation, and the Board examines its
options: sell the hospital; merge with another, more stable hospital; or close.

The smaller the hospital, the less able it is to resist this downward spiral. As noted earlier, the
average size of the 76 hospitals that closed in 1989 was only 44 beds for rural hospitals, and 103
beds for urban hospitals. They are significantly smaller than the nationwide averages.


Planned Closures

Some hospital administrations and communities have long realized the possibility of their
hospitals closing. They planned to use the closing as an opportunity to reassess and improve
community health care.




                                                page7
Three hospitals closed in 1989 as part of a plan to upgrade community hospital care:

     l	    In Lam-ens County, South Carolina, the community decided not to upgrade the two
           existing hospitals located 12 miles apart, but instead to build a new hospital in the
           County. Bailey Memorial Hospital and Laurens District Hospital both closed in
           1989, and the new centrally located Laurens Hospital opened.

     l	    Wheeler Hospital, in Gilroy, California had no room to expand and upgrade. The
           hospital closed after a new hospital, South Valley Hospital, was constructed 3 miles
           away.

Other hospitals closed as acute care facilities as part of a plan to better meet the needs of the
community. For example:

     l	    In Meridian, Mississippi, Physicians Hospital closed as an acute care hospital, but
           was reopened by community physicians as a psychiatric hospital with a chemical
           dependency unit. These services had been previously unavailable in the community.

     l	    In Michigan City, Indiana, a community needs assessment showed an excess of acute
           care beds but a shortage of psychiatric inpatient services. Kingwood Hospital was
           converted from an acute care general hospital to a psychiatric hospital.

     l	    In Darlington, South Carolina, the community needed a nursing home, but had an
           excess of acute care beds. Southland Medical Center was closed as an acute care
           hospital and opened as a nursing home.

In a few cases, the hospital closed to reduce competition with an affiliated hospital. For
example, White River Medical Center, in Batesville, Arkansas bought Gray’s Hospital, only 2
,miles away. The hospitals’ administration saw no reason for two hospitals owned by the same
company to compete directly with each other, and closed the acute care service at Gray’s
Hospital.


IMPACT     OF HOSPITAL        CLOSURE

In communities where hospitals closed in 1989, this study assessed:

     l     the number of patients affected by the closure of the hospital;

     l	    the availability of inpatient care and emergency medical services to communities in
           which hospitals closed; and

     l     the current use of the closed hospital facility.




                                                 page8
How Many Patients Were Affected?

Few patients were affected by hospital closure. For rural hospitals that closed in 1989, the
average daily census in the year prior to closure was 10 patients. The urban hospitals had an
average daily census of 31 patients.


                             WHEN HOSPITALS CLOSED, 

                        HOW MANY PATIENTS WERE AFFECTED? 





Medicare utilization data were analyzed to determine the number of elderly patients affected by
hospital closure in 1989. In rural hospitals that closed, five Medicare patients were in the
hospital on an average day in the year prior to closure. In the urban hospitals that closed, there
were 15 Medicare patients.


                          WHEN HOSPITALS CLOSED, 

                 HOW MANY MEDICARE PATIENTS WERE AFFECTED? 





Are Inpatient Care and Emergency Services Available?

Availability of inpatient and emergency medical care was measured in miles from the closed
hospital to the nearest inpatient and emergency facilities.

Inpatient Care: In most communities where a hospital closed in 1989, inpatient hospital care is
available nearby.

Rural: 	   Residents in 82 percent of the rural communities where a hospital closed can get
           inpatient care within 20 miles of the closed hospital.

           Residents of only one rural community must travel more than 30 miles for inpatient
           care. Since the closure of Sterling County Hospital, residents of Sterling City, Texas
           must travel 40 miles for inpatient care. Sterling City has emergency care services,




                                               page9
            located in the former hospital, to stabilize patients prior to transporting them to an
            acute care hospital.

Urban: 	 In all but two of the 33 urban communities where a hospital closed in 1989, inpatient
            care is available within 10 miles of the closed hospital. Twenty-three of the closed
            hospitals are within 3 miles of an inpatient hospital.


                              AVAILABILITY       OF INPATIENT CARE




             11 - 20 Miles                                       17 (40%)                   1(3%)
             21 - 30 Miles                                        7 (16%)                   1(3%)


Emergency Services: When a hospital closes, the community loses not only inpatient beds, but
also emergency services.

Rural: 	    In all 43 cases of closed rural hospitals, emergency care facilities are available within
            30 miles of the closed hospital.

            In eight of the 43 rural communities where hospitals closed, residents had to travel
            more than 20 miles for emergency care. In those communities, ambulance services
            and physician services are available.


           NEAREST EMERGENCY SERVICES TO CLOSED RURAL HOSPITALS




Urban: 	 In all but six urban communities where a hospital closed, emergency care facilities are
            less than 3 miles from the closed hospital.

            Emergency care facilities in five of the remaining six communities are within 11 miles
            from the closed hospital. Residents of Granville, New York must travel 23 miles for
            emergency care. Granville has a health clinic, physicians, and ambulance service
            available.



                                                 page 10
What Is the Building      Used For Now?

Forty-four (58%) of the closed hospital facilities are currently being used. Three of the hospitals
reopened in 1990. The other facilities, while ceasing to operate as acute care hospitals, continue
to provide services to the community. For example:

      l	     Caney Clinic which opened in the former hospital facility in Caney, Kansas provides
             outpatient and 24-hour emergency services;

      l      Malheur Memorial Hospital in Nyssa, Oregon is now a rural health clinic;

      l	     George Ade Memorial Hospital in Brook, Indiana has been converted to a nursing
             home; and

      l	     St. Joseph’s Hospital in Alton, Illinois now renamed St. Clare’s;offers substance
             abuse, psychiatric, occupational health and extended care services as well as radiation
             therapy for cancer patients.

The following chart illustrates the current use of all 76 hospitals closed in 1989.


                              CURRENT USE OF CLOSED HOSPITALS

                                                                    Number of Former Hospitals*
              Current Use of Building
                                                                     Rmml                     1 Jrhsan   a
            Reopened Hospital                                            2                         1
            Specialty Treatment Facility                                 2                         4
               (e.g. chemical dependency)
            Long-Term Care Facility                                     14                         5
            Outpatient Services/Clinic                                   9                         9
            Offices                                                      4                         2
            Other                                                        2                         0


*Duplicate count. In eight of the 76 former hospitals more than bne service is now offered.


Plans are being made for 12 of the currently vacant hospitals to be used for other types of health
care services. For example, Mauritz Hospital in Ganado, Texas has plans to be converted to an
alcohol and drug treatment hospital.

Plans are also being made for several of the closed facilities to reopen as acute care hospitals.




                                                      page 11
SUMMARY

Seventy-six hospitals closed in 1989. Their characteristics were similar to hospitals that closed
in 1987 and 1988. Most hospitals that closed in 1989 were small and had low occupancy. When
a hospital closed, few patients were affected. Most had emergency and inpatient medical care
available within 20 miles.




                                             page 12
                                     ENDNOTES 



I. 	   Hospital occupancy rate is defined as the actual number of patient days divided by the total
       bed days available. National occupancy rate is defined as the sum of all hospitals’
       occupancy rates, divided by the number of hospitals.

i.3    Average Medicare utilization of closed urban and rural hospitals is defined as the percent of
       Medicare patient days compared to the total patient days for each hospital, summed and
       divided by the number of hospitals. National average Medicare utilization is the percent of
       Medicare utilization of each hospital, summed and divided by the total number of hospitals.
       Medicaid utilization is calculated in the same way.




                                                page 13
                                     APPENDIX                  A


 METHODOLOGY

 Phenomenon        of closure

 To determine how many hospitals closed in 1989, we contacted all 50 State licensing and
 certification agencies. We also contacted State hospital associations and State health planning
 agencies. When a closed hospital met the study’s definition or when there were questions, we
 made contact with officials associated with the closed hospitals and officials associated with
 hospitals nearest to the closed hospital.

  To determine the number of hospitals in the United States, we used the Hospital Cost Report
  Information System (HCRIS) maintained by the Health Care Financing Administration (HCFA).
’ We included only the general,‘short-term, acute care hospitals under Medicare’s Prospective
  Payment System (PPS) in the universe. There were 5,396 hospitals listed. This was the current
  universe, at the time of inquiry, of short-term, acute care, general hospitals on HCRIS for the
  fifth year of PPS (PPS 5).

 Characteristics    of closed hospitals

 To analyze characteristics of closed hospitals, we used HCFA’s HCRIS data. Cost reports were
 not available for 2 of the 76 closed hospitals because they reported to Medicare as part of a
 corporate system, rather than as an individual hospital, in the years prior to closure. For the
 remaining 74 hospitals, we used the latest pre-closure cost reports containing sufficient data. For
 example, if a hospital closed in May 1989 and its accounting year was on a January-December
 cycle, we used the provider’s January 1, 1988 to December 31, 1988 report.

 Reasons for hospital closure

 We contacted officials of the following organizations to determine the reasons for 1989 hospital
 closure:

      l      State hospital associations;

      l      State health planning agencies;

      l      State certification and licensing agencies;

      l      closed hospitals; and

      l      nearest hospitals to closed hospitals.




                                                      A-l
Impact of hospital closure

We limited the “impact” issues to distance from the closed hospital to the nearest still-operating
hospitals and to emergency services. To determine this, we contacted many of the following:

     l     former hospital administrators, board members, and/or staff;

     l     hospital administrators and/or staff at the nearest hospitals;

     l     local police and health officials;

     l     local government officials;

     l     State health planning agencies;
                                                             .
     l     State certification and licensing agencies; and

     l     State hospital associations.




                                                A-2 

                        APPENDIX                   B

                        1989 HOSPITAL    CLOSURES

                                           Number of   Number of
Number of Closures by State                  Rural       Urban

Texas 
                 13 
                  10           3

Illinois 
               7
                    2           5

Mississippi 
            6
                    6           0
Colorado 
               5
                    2           3

Michigan 
               4
                    3           1

Minnesota 
              3
                    3           0
Nebraska 
               3 .
                  3          .O 

New York 
               3
                    1           2

South Carolina 
         3
                    3           0
Arkansas 
               2
                    1           1

California 
             2
                    0           2

Indiana 
                2
                    2           0
Kansas 
                 2
                    1           1

Louisiana 
              2
                    0           2

Maine 
                  2
                    1           1

Massachusetts 
          2
                    0           2

Oklahoma 
               2
                    1           1

Oregon 
                 2
                    2           0
Arizona 
                1
                    0           1

Florida 
                1
                    0           1

Maryland 
               1
                    0           1

New Jersey 
             1
                    0           1

North Carolina 
         1
                    1           0
Ohio 
                   1
                    0           1

Pennsylvania 
           1
                    0           1

Rhode Island 
           1
                    0           1

South Dakota 
           1
                    1           0
Tennessee 
              1
                    0           1

Washington 
             1
                    0           1


29 States 
         76 Closures             43 Rural    33 Urban




                                   B-l
                 1989 HOSPITAL    CLOSURES BY NAME AND LOCATION
                                                                       Rural/
Hospital Name                             City                 State   Urban

Central Ozarks Medical Center             Yellville            AR      rural
Gray’s Hospital                           Batesville           AR       urban
Scottsdale Community Hospital             Scottsdale           AZ       urban
Channel Islands Community Hospital        Oxnard               CA       urban
Wheeler Hospital                          Gilroy               CA       urban
Rocky Mountain Hospital                   Denver               co       urban
Doctors Hospital                          Colorado Springs     co       urban
AMC Cancer Research Center                Lakewood             co       urban
Monte Vista Community Hospital            Monte Vista          co      rural
Walsh District Hospital                   Walsh                co      rural
AM1 Southeastern Medical Center           North Miami Beach    FL      urban
Lutheran General Hospital                 Park Ridge       .   IL      urban
St. Joseph’s Hospital                     Alton                IL I    urban
Mount Sinai North Hospital                Chicago              IL      urban
Sheridan Road Hospital                    Chicago              IL      urban
La Harpe Hospital                         La Harpe             IL      rural
Pearce Hospital                           Eldorado             IL      rural
Gateway Community Hospital                East St. Louis       IL      urban
George Ade Memorial Hospital              Brook                IN      rural
Kingwood Hospital                         Michigan City        IN      rural
Caney Municipal Hospital                  Caney                KS      rural
Memorial Hospital Corporation of Topeka   Topeka               KS      urban
Montelepre Memorial Hospital              New Orleans          LA      urban
Our Lady of Lourdes of St. Martinsville   St. Martinsville     LA      urban
Van Buren Community Hospital              Van Buren            ME      rural
Taylor Hospital                           Bangor               ME      urban
Parkwood Hospital                         Clinton              MD      urban
Choate Hospital                           Woburn               MA      urban
Sancta Maria Hospital                     Cambridge            MA      urban
Redford Community Hospital                Redford              MI      urban
Thorn Hospital                            Hudson               MI      rural
Mackinac Straits Hospital
     and Health Center                    St. Ignace           MI      rural
Russell Memorial Hospital                 Onaway               MI      rural
St. Mary’s Hospital                       Wins ted             MN      rural
Caledonia Health Care Center              Caledonia            MN      rural
Gaylord Community Hospital                Gaylord              MN      rural
Physicians Hospital                       Meridian             MS      rural
South Washington County Hospital          Hollandale           MS      rural
South Mississippi State Hospital          Laurel               MS      rural
Kuhn Memorial State Hospital              Vicksburg            MS      rural




                                           B-2 

                                                                Rurull
Hospital Name                           City            State   Urban

Matty Hersee Hospital                    Meridian       MS      rural
West Scott Baptist Hospital              Morton         MS      rural
Wakefield Healthcare Center              Wakefield      NE      rural
Fritzer Memorial Hospital               Oxford          NE      rural
Community Memorial Hospital              B urwell       NE      rural
St. Mary’s Hospital                     Orange          NJ       urban
Arnold Gregory Memorial Hospital        Albion          NY       urban
Emma Laing Stevens Hospital             Granville       NY       urban
Community Hospital                       Stamford       NY      rural
Robersonville Community Hospital        Robersonville   NC      rural
Wellington Community Hospital           Wellington      OH      urban
Moots Osteopathic Hospital              Pry or          OK      rural
City of Faith Hospital                  Tulsa           OK      urban
Harvey E. Rinehart Memorial Hospital    Wheeler         OR      rural
Malheur Memorial Hospital District      Nyssa           OR      rural
St. John’s Health and Hospital Center   Pittsburgh      PA      urban
Notre Dame Hospital                     Central Falls   RI      urban
Laurens District Hospital               Laurens         SC      rural
Bailey Memorial Hospital                Clinton         SC      rural
Southland Medical Center                Darlington      SC      rural
Kingsbury County Memorial Hospital      Lake Preston    SD      rural
Northwest General Hospital              Knoxville       TN      urban
St. Edward Hospital                     Cameron         TX      rural
Seton Holy Cross                        Austin          TX      urban
South Plains Hospital Clinic            Amherst         TX      rural
Hall-Bennett Memorial Hospital          Big Spring      TX      rural
Archer County Hospital                  Archer City     TX      rural
Sterling County Hospital                Sterling City   TX      rural
San Saba Hospital                       San Saba        TX      rural
Menard Hospital                         Menard          TX      rural
Newton County Memorial HospitaI         Newton          TX      rural
Leon Memorial Hospital                  Buffalo         TX      rural
Pioneer Park Hospital                   Irving          TX      urban
HCA Mansfield Hospital                  Mansfield       TX      urban
Mauri& Memorial Hospital                Ganado          TX      rural
Medical Dental Hospital                 Seattle         WA      urban




                                         B-3 

